App. 1
NONPRECEDENTIAL DISPOSITION
To be cited only in accordance
with Fed. R. App. P. 32.1
United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted June 28, 2019*
Decided June 28, 2019
Before
JOEL M. FLAUM, Circuit Judge
DIANE S. SYKES, Circuit Judge
DAVID F. HAMILTON, Circuit Judge
No. 19-1338
DEBORAH WALTON,
Plaintiff-Appellant,
v.
FIRST MERCHANTS
BANK, et al.,
Defendants-Appellees.

Appeal from the United
States District Court for the
Southern District of Indiana,
Indianapolis Division.
No. 1:18-cv-01784-JRS-DLP
James R. Sweeney II,
Judge.

* We have agreed to decide this case without oral argument
because the briefs and record adequately present the facts and
legal arguments, and oral argument would not significantly aid
the court. Fed. R. App. P. 34(a)(2)(C).

App. 2
ORDER
Deborah Walton sued First Merchants Bank, its
general counsel, and its CEO for allegedly discriminat­
ing against her in violation of the Equal Credit Oppor­
tunity Act, 15 U.S.C. §§ 1691-1691f. She also asserted
that the defendants negligently shared her personal
information without her consent. The district court dis­
missed the complaint for failure to state a claim, and
Walton appeals. Because Walton did not plausibly state
a claim for race discrimination or negligence, we af­
firm.
The amended complaint was dismissed under Fed­
eral Rule of Civil Procedure 12(b)(6), so we recount the
facts as alleged in the complaint and its exhibits, mak­
ing all reasonable inferences in Walton’s favor. Loja v.
Main St. Acquisition Corp., 906 F.3d 680, 682-83 (7th
Cir. 2018). We construe her pro se complaint liberally.
Erickson v. Pardus, 551 U.S. 89, 94 (2007).
This suit arises from two disparate sets of events.
In 2017, Walton sued the Bank for allegedly violat­
ing the Telephone Consumer Protection Act, 47 U.S.C.
§ 227. During the litigation, the Bank shared all her
personal information, including her account numbers
and Social Security number, with the law firm repre­
senting it. In turn, the Bank’s lawyers publicly disclosed
that information by filing unredacted documents on the
electronic court docket, handing them to a court re­
porter during a deposition, and mailing a CD contain­
ing the documents to Walton herself. Walton alleges

App. 3
that these disclosures were negligent under Indiana
law.
Walton also had ongoing customer-service difficul­
ties with the Bank, where she held checking and sav­
ings accounts and a personal loan. She alleges that, at
various times, the Bank did not allow her to make
deposits or withdraw available funds, failed to apply
her loan payments, did not mail her statements to her,
and ultimately closed her accounts without providing
a reason. Walton, who is African American, claims that
these events constitute race discrimination in violation
of the Equal Credit Opportunity Act. She alleges that
the defendants “have not treated White Customers in
the same manner they have treated Black customers
when it comes to Equal Credit Opportunities” and that
they “have given other Customers that are not Black
the benefit of protecting their personal information.”
Because the defendants violated the Act, she added,
they were also negligent per se under Indiana law.
The district judge dismissed the amended com­
plaint with prejudice. Walton had failed to state a neg­
ligence claim for multiple reasons, the judge said,
including that she did not show that the defendants
had breached any duty to her or that she had incurred
any compensable injury. The judge also concluded that
Walton had failed to state a claim under the Equal
Credit Opportunity Act because she had not alleged
that the Bank “mistreated her because of her race,” and
her allegations of discrimination were conclusory. With­
out a claim that the defendants violated the Act, Wal­
ton could not proceed on a claim that the defendants

App. 4
were negligent per se. Finally, the judge ordered Wal­
ton, who had filed at least 20 cases in the district [sic]
since 2003, to show cause why she should not be
sanctioned for filing a frivolous lawsuit. See Fed. R.
Civ. P. 11(b)(1), (2).1
On appeal, Walton restates the allegations in her
amended complaint and argues that she would have
prevailed if she had been allowed to proceed to discov­
ery. We review de novo the dismissal of a complaint un­
der Rule 12(b)(6) for failure to state a claim upon which
relief could be granted. Estate of Davis v. Wells Fargo
Bank, 633 F.3d 529,532-33 (7th Cir. 2011). A complaint
must contain a short and plain statement of a claim,
with factual allegations “sufficient to show that [the]
claim has substantive plausibility.” Johnson v. City of
Shelby, 135 S. Ct. 346, 347 (2014); see also Fed. R. Civ.
P. 8(a); Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009).
The Equal Credit Opportunity Acts [sic] bans dis­
crimination against any applicant, with respect to any
aspect of a credit transaction, on the basis of race. 15
U.S.C. § 1691(a)(1). Therefore, Walton needed to allege
that she was an “applicant” and that the defendants
treated her less favorably because of her race. See
Estate of Davis, 633 F.3d at 538. But it is unclear
1 Before Walton responded to the order to show cause, she
appealed on the day after her complaint was dismissed with prej­
udice. That raised the possibility that the district court’s decision
was not “final.” See 28 U.S.C. § 1291. But we determined, after
the parties’ briefing, that the district court retained jurisdiction
over its order to show cause and that we would proceed to the
merits.

App. 5
whether Walton was an “applicant” of the Bank as de­
fined in 15 U.S.C. § 1691a(b); she was, as best we can
tell, a customer; she was not someone seeking “an ex­
tension, renewal, or continuation of credit.”
Even if Walton can be considered an “applicant”
under the Act, nothing in her complaint renders it
plausible that the problems she encountered resulted
from race discrimination. We have made it clear that
plaintiffs alleging race discrimination need not provide
great detail to state a claim. See Swanson v. Citibank,
N.A., 614 F.3d 400, 405 (7th Cir. 2010) (concluding
that identifying the type of discrimination, when it
occurred, and the perpetrator was sufficient); see also
Carlson v. CSX Transp., Inc., 758 F.3d 819,827 (7th Cir.
2014). But even though the burden was not high, Wal­
ton’s complaint fell short.
Plausibility requires “more than a sheer possibil­
ity that a defendant has acted unlawfully”; plaintiffs
must allege “factual content that allows the court to
draw the reasonable inference that the defendant is li­
able for the misconduct alleged.” West Bend Mut. Ins.
Co. v. Schumacher, 844 F.3d 670, 675 (7th Cir. 2016)
(citing Iqbal, 556 U.S. at 678). Here, Walton has alleged
no facts suggesting discrimination. She only describes
various problems with the Bank’s administration of
her accounts. She identifies no Bank employees—not
even the individual defendants—who acted in a dis­
criminatory manner. The only allusions to race are her
two statements that white customers were not mis­
treated. But no factual content supports this allegation
or explains her awareness of how the Bank allegedly

App. 6
treats its white customers. Her bare statements that
the alleged customer-service failures were “clear” dis­
crimination are insufficient. McReynolds v. Merrill
Lynch & Co., Inc., 694 F.3d 873, 886 (7th Cir. 2012)
(“The assertion is merely a conclusion, unsupported by
the necessary factual allegations to support a reason­
able inference of discriminatory intent.”) (citing Iqbal,
556 U.S. at 679).
Walton’s claims under Indiana law also fail. A claim
of negligence per se requires plaintiffs to show that the
defendant violated a statute without an excuse.
Stachowski u. Estate of Rudman, 95 N.E.3d 542, 544
(Ind. Ct. App. 2018). Here, there is no credible violation
of the Act. And Walton’s argument that she stated a
common-law negligence claim premised on the sharing
of her personal information is frivolous. The defend­
ants permissibly shared her personal information with
the attorneys representing them in a lawsuit that Wal­
ton filed against them. It is those attorneys, not the de­
fendants, whom Walton accuses of then disclosing the
information without her consent. In any case, the Bank
did not act unreasonably because the attorneys repre­
senting it were statutorily authorized to acquire her
information. 15 U.S.C. § 6802(e)(4). The one possible
misstep—filing an unredacted document—was, again,
not the action of the defendants and was, in any case,
quickly remedied.
AFFIRMED

App. 7
United States Court of Appeals
for the Seventh Circuit
Chicago, Illinois 60604
May 23, 2019
By the Court:
DEBORAH WALTON,
Plaintiff-Appellant,
No. 19-1338

v.

]
]
]
]
]

Appeal from the United
States District Court for
the Southern District of
Indiana, Indianapolis
Division.

FIRST MERCHANTS
]
BANK, et al.,
No. l:18-cv-01784-JRS-DLP
Defendants-Appellees. ]
] James R. Sweeney, II,
]
Judge.
ORDER
A review of the section of the brief captioned “Ju­
risdictional Statement” filed by appellees reveals that
appellees have not complied with the requirements of
Circuit Rule 28(b). That rule requires an appellee to
state whether or not the jurisdictional summary in an
appellant’s brief is “complete and correct.” If it is not,
the appellee must provide a “complete jurisdictional
summary.”
Appellees state that appellant’s Statement “is not
complete or correct.” And, although appellees provide
a jurisdictional statement, they fail to provide one that
is both complete and correct. Specifically, appellees’
statement fails to identify with specificity the “provi­
sion of the constitution” or “federal statute” involved in

App. 8
the case. See Cir. Rule 28(a)(1). This information must
be provided. It is insufficient to cite 28 U.S.C. § 1331.
Appellees’ statement also fails to provide the nec­
essary information to establish appellate jurisdiction,
including all pertinent dates. See Circuit Rule 28(a)(2).
This information must be provided. It is insufficient to
cite 28 U.S.C. § 1291. Accordingly,
IT IS ORDERED that appellees file a paper cap­
tioned “Amended Jurisdictional Statement” on or before
May 30, 2019, that provides the omitted information
noted above and otherwise complies with all the re­
quirements of Circuit Rule 28(b), and if appellant’s
brief is not complete and correct, Circuit Court Rule
28(a) also.
IT IS FURTHER ORDERED, that the Clerk DIS­
TRIBUTE, along with the briefs in this appeal, copies
of this order and appellees’ “Amended Jurisdictional
Statement” to the assigned merits panel.

App. 9

UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
[SEAL]
Everett McKinley Dirksen
United States Courthouse
Room 2722 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312)435-5850
www.ca7.uscourts.gov

ORDER
May 3, 2019
By the Court:
DEBORAH WALTON,
Plaintiff - Appellant
No. 19-1338

v.
FIRST MERCHANT’S BANK, et al.,
Defendants - Appellees

Originating Case Information:
District Court No: l:18-cv-01784-JRS-DLP
Southern District of Indiana, Indianapolis Division
District Judge James R. Sweeney
The following is before the court: APPELLANT’S
VERIFIED MOTION FOR ASSISTANCE FROM
THE 7th CIRCUIT, filed on May 2, 2019, by the pro
se appellant.
A review of the court’s docket indicates that each filing
made by the appellees includes a certificate of service

App. 10
certifying that counsel for the appellees served the ap­
pellant via United States mail.

App. 11
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
[SEAL]
Everett McKinley Dirksen
United States Courthouse
Room 2722 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

ORDER
April 29, 2019
Before
DAVID F. HAMILTON, Circuit Judge
DEBORAH WALTON
Plaintiff - Appellant
No. 19-1338

v.
FIRST MERCHANT’S BANK, et al.,
Defendants - Appellees

Originating Case Information:
District Court No: l:18-cv-01784-JRS-DLP
Southern District of Indiana, Indianapolis Division
District Judge James R. Sweeney
The following are before the Court:
1.

APPELLANTS MOTION FOR CLARITY FROM
THE 7th CIRCUIT COURT OF APPEALS
CONCERNING DOCKET 1 AND DOCKET 62,

App. 12
filed on April 22, 2019, by Pro Se Appellant Debo­
rah Walton.
2.

APPELLEE FIRST MERCHANTS BANK’S
NOTICE OF DISTRICT COURT RULING ON
WALTON’S MOTION FOR CLARITY (DKT.
15), filed on April 23,2019, by counsel for Appellee
First Merchants Bank.

IT IS ORDERED that the motion is GRANTED to
the extent that this court clarifies that “Exhibit H” is
not part of the record on appeal. The appellant may re­
fer to her original complaint in her filings.

App. 13
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
[SEAL]
Everett McKinley Dirksen
United States Courthouse
Room 2722 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

ORDER
April 4, 2019
By the Court:
DEBORAH WALTON,
Plaintiff - Appellant
No. 19-1338

v.
FIRST MERCHANT’S BANK, et al.,
Defendants - Appellees

Originating Case Information:
District Court No: l:18-cv-01784-JRS-DLP
Southern District of Indiana, Indianapolis Division
District Judge James R. Sweeney
Upon consideration of the MOTION FOR EX­
TENSION OF TIME TO FILE APPELLEE’S
BRIEF, filed on April 2, 2019, by counsel for the ap­
pellee,

App. 14
IT IS ORDERED that the motion will be filed
without court action. Briefing will proceed according
to the court’s order dated April 2, 2019.

i

App. 15
United States Court of Appeals
for the Seventh Circuit
Chicago, Illinois 60604
April 2, 2019
By the Court:
DEBORAH WALTON,
Plaintiff-Appellant,
No. 19-1338

v.

]
]
]
]
]

Appeal from the United
States District Court for
the Southern District of
Indiana, Indianapolis
Division.

FIRST MERCHANTS
]
BANK, et al.,
No. l:18-cv-01784
Defendants-Appellees. ]
] James R. Sweeney, II,
]
Judge.
ORDER

On consideration of the jurisdictional papers filed
by the parties,
IT IS ORDERED that this appeal shall proceed to
briefing on the merits of the case. See Otis v. City of
Chicago, 29 F.3d 1159, 1165-67 (7th Cir. 1994) (en
banc). The remainder of the briefing schedule is as fol­
lows:
1.

The appellees shall file their joint brief on or
before May 3, 2019.

2.

The appellant shall file her reply brief, if any,
on or before May 24, 2019.

Appellant Walton is reminded that if she intends
to seek review of the district court’s disposition of the

App. 16
show cause order, she must file a new notice of appeal.
See Cooke v. Jackson National Life Ins. Co., 882 F.3d
630 (7th Cir. 2018) (a judgment on the merits and an
award of attorney’s fees are separately appealable).
NOTE: Counsel should note that the digital copy
of the brief required by Circuit Rule
31(e) must contain the entire brief from
cover to cover. The language in the rule
that “[t]he disk contain nothing more
than the text of the brief...” means that
the disk must not contain other files, not
that tabular matter or other sections of
the brief not included in the word count
should be omitted. The parties are ad­
vised that Federal Rule of Appellate Pro­
cedure 26(c), which allows for three
additional days after service by mail,
does not apply when the due dates of
briefs are set by order of this court. All
briefs are due by the dates ordered.

App. 17
United States Court of Appeals
for the Seventh Circuit
Chicago, Illinois 60604
March 18, 2019
By the Court:
DEBORAH WALTON,
Plaintiff-Appellant,
No. 19-1338

V.

]
]
]
]
]

Appeal from the United
States District Court for
the Southern District of
Indiana, Indianapolis
Division.

FIRST MERCHANTS
1 .No. l:18-cv-01784JRS-DLP
BANK, et al.,
Defendants-Appellees. 1
] James R. Sweeney, II,
]
Judge.
ORDER
On consideration of Appellee First Merchants
Bank’s Memorandum on Jurisdictional Issues filed on
March 15, 2019,
IT IS ORDERED that appellant file, on or before
April 1,2019, a response to appellee’s filing, addressing
the jurisdictional issue raised in appellee’s Statement
of Jurisdictional Issues filed on March 4, 2019.

App. 18
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
[SEAL]
Everett McKinley Dirksen
United States Courthouse
Room 2722 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

ORDER
March 7, 2019
By the Court:
DEBORAH WALTON,
Plaintiff - Appellant
No. 19-1338

v.
FIRST MERCHANT’S BANK, et al.,
Defendants - Appellees

Originating Case Information:
District Court No: l:18-cv-01784-JRS-DLP
Southern District of Indiana, Indianapolis Division
District Judge James R. Sweeney
Upon consideration of the MOTION TO THE COURT
TO INCLUDE DOCKET 115, filed on March 6, 2019,
by the pro se appellant,
IT IS ORDERED that the motion is GRANTED to
the extent that the clerk shall send the appellant a
copy of document 115 from the district court docket.
Further, the appellant is reminded that the court will

App. 20
United States Court of Appeals
for the Seventh Circuit
Chicago, Illinois 60604
March 5, 2019
By the Court:
DEBORAH WALTON,
Plaintiff-Appellant,
No. 19-1338

v.

]
]
]
]
]

Appeal from the United
States District Court for
the Southern District of
Indiana, Indianapolis
Division.

FIRST MERCHANTS
]
BANK, et al.,
No. 1:18-cv-01784-JRS-DLP
Defendants-Appellees. ]
] James R. Sweeney, II,
]
Judge.
ORDER
On consideration of Appellee First Merchants
Bank’s Statement on Jurisdictional Issues filed on
March 4,2019, in which appellee claims that “Walton’s
appeal is premature and this court lacks jurisdiction
until a final appealable Order is issued by the District
Court’s ruling on the Order to Show Cause”,
IT IS ORDERED that appellee file, on or before
March 15, 2019, a memorandum on appellate jurisdic­
tion that addresses cases such as Buchanan v. United
States 82 F.3d 706, 708 (7th Cir. 1^96) (per curiam) (a
sanctions matter is collateral to merits of case), and
Barrow v. Falck, 977 F.2d 1100, 1102 (7th Cir. 1992)

App. 22
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
INDIANAPOLIS DIVISION
DEBORAH WALTON,

)
)
)

Plaintiff,
v.

) No. l:18-cv-01784-JRS-DLP

FIRST MERCHANTS
BANK, et al.,
Defendant.

)
)
)
)

Entry on Defendants’ Motion to Dismiss
(Filed Feb. 20, 2019)
This matter is before the Court on Defendants’
motion to dismiss under Federal Rule of Civil Proce­
dure 12(b)(6). (ECF No. 73.) This Court has jurisdiction
over Plaintiffs federal-law claim pursuant to 28 U.S.C.
§ 1331 and supplemental jurisdiction over her statelaw claims pursuant to 28 U.S.C. § 1367. In December
2018, the Court granted Plaintiff leave to amend her
original complaint. (ECF No. 62.) After carefully con­
sidering the amended complaint, motion, response,
and reply, the Court concludes that the motion should
be GRANTED.
I. Background
This case arises from another case in this district,
l:17-cv-01888-JMS-MPB (the “2017 case”), in which

App. 23
Plaintiff Deborah Walton (“Walton”) alleges that De­
fendant First Merchants Bank (“FMB”) violated the
Telephone Consumer Protection Act, 47 U.S.C. § 227,
and breached a bank*account agreement. Here, Walton
alleges that in the course of the litigation in the 2017
case, defendants FMB, Michael Rechin and Brian Hunt
(collectively, “Defendants”) shared her sensitive per­
sonal information, including her social security num­
ber, date of birth, home and cell phone numbers, and
bank account numbers, with third parties without her
consent. (ECF No. 66 'll'll 7-10.) Walton also alleges that
Defendants discriminated against her on the basis of
race.
More specifically, Walton, who proceeds pro se in
the present suit, filed an amended complaint alleging
three claims against FMB: (1) negligence, (2) violation
of the Equal Credit Opportunity Act (“ECOA”), and
(3) negligence per se arising from FMB’s alleged viola­
tion of the ECOA. Defendants move for dismissal of all
three counts of Walton’s amended complaint.
II. Legal Standard
To survive a motion to dismiss, a complaint must
“state a claim to relief that is plausible on its face.”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). A claim is
“plausible” only if the plaintiff alleges “enough fact[s]
to raise a reasonable expectation that discovery will
reveal evidence” that supports the plaintiff’s allega­
tions. Bell Atlantic Corp. v. Twombly, 550 U.S. 544,
556 (2007). Alternatively, a plaintiff’s claim will be

App. 24
dismissed if she “plead [s] facts that show that [s]he has
no legal claim.” Atkins v. City of Chicago, 631 F.3d 823,
832 (7th Cir. 2011). When evaluating the sufficiency of
a complaint for the purposes of a motion to dismiss, the
court must “construe [the complaint] in the light most
favorable to the nonmoving party, accept well-pleaded
facts as true, and draw all inferences in [the non­
movant’s] favor.” Reger Dev., LLC v. Nat’l City Bank,
592 F.3d 759, 763 (7th Cir. 2010). However, the com­
plaint must “give the defendant fair notice of what the
. . . claim is and the grounds upon which it rests,” and
its “[f] actual allegations must.. . raise a right to relief
above the speculative level.” Pisciotta v. Old Nat’l Ban­
corp, 499 F.3d 629, 633 (7th Cir. 2007) (citations omit­
ted). In reviewing a pro se plaintiff’s claims, the court
construes the allegations liberally. Maddox v. Love, 655
F.3d 709, 718 (7th Cir. 2011).
III. Discussion
A. Negligence
Walton alleges that the Defendants failed to pro­
tect her sensitive personal information in the course of
litigation in the 2017 case. (ECF No. 66 at 2. <R<][ 7-8.)
Walton alleges that the Defendants were negligent
when they shared Walton’s personal information (1) with
Walton during discovery (ECF No. 66 at 3.10), (2) with
FMB’s lawyers during the course of the litigation in the
2017 case (ECF No. 66 at 2. f 7; ECF No. 66 at 5. f 23),
and (3) with the court reporter during a deposition
(ECF No. 66 at 3. f 10.). Defendants argue that Walton

App. 25
fails to state a claim for relief as to this claim, alleging
that Walton has not shown an “unauthorized” disclo­
sure of her personal information. (ECF No. 74 at 6.)
Walton responds that the Defendants were negligent
when FMB’s lawyer, Brian Hunt, “instruct [ed] ” FMB’s
outside counsel firm to “expose” Walton’s personal in­
formation, including her social security number and
credit application information to the “public” via the
Court’s docket system. (ECF No. 78 at 2.)
“To prevail on a negligence claim, the plaintiff
must show (1) a duty owed to the plaintiff by the
defendant; (2) a breach of that duty by allowing con­
duct to fall below the applicable standard of care; and
(3) compensable injury proximately caused by the
breach of duty.” Smith v. Walsh Constr. Co., II, LLC, 95
N.E.3d 78,84 (Ind. Ct. App. 2018). Walton fails to show
at least two of the necessary elements of negligence;
namely, that: (1) Defendants breached any duty to
Walton and (2) Defendants proximately caused Wal­
ton compensable injury. More specifically, dismissal is
proper for the following reasons.
First, Defendants did not breach any duty to Wal­
ton when they provided FMB’s attorneys with Walton’s
personal information, or when FMB’s attorneys shared
Walton’s information within the same law firm. See 15
U.S.C. § 6802(e)(4) (allowing a financial institution to
share a consumer’s “nonpublic” information with its at­
torneys). Moreover, Walton was proceeding pro se in
the 2017 case. Thus, Defendants did not breach any
duty to Walton by providing FMB attorneys with Wal­
ton’s contact information, as contact between parties

App. 26
to litigation is necessary under the Federal Rules of
Civil Procedure. See, e.g., Fed. R. Civ. P. 26(f) (“the par­
ties must confer as soon as practicable”); Fed. R. Civ. P.
37(a)(1) (instructing parties to confer or attempt to
confer in good faith). Accordingly, it is preposterous for
Walton to allege that opposing counsel misused her
personal information because they contacted her about
a pending lawsuit that she filed against their client.
Similarly, Defendants did not breach any duty to
Walton by providing Walton’s personal information in
deposition exhibits to the court reporter in the 2017
case. See Peace v. Pollard, No. 15-cv-481-pp, 2016 WL
3951148, at *2 (E.D. Wis. July 20, 2016) (classifying a
court reporter as an “officer of the court” in the context
of depositions). Defendants also did not breach any
duty to Walton by producing Walton’s own personal
information to Walton during discovery, whether re­
dacted or unredacted. Walton also fails to plead any
compensable injury related to (1) the court reporter’s
exposure to Walton’s personal information during dep­
osition or to (2) Walton’s receipt of her own personal
information during discovery.
Second, Walton fails to show she was injured at all,
much less that FMB caused her any compensable in­
jury in any of the above complained of conduct or when
FMB filed an unredacted document containing Wal­
ton’s personal information in the 2017 case. Although
Walton may have been upset by the appearance of her
unredacted information on the court’s docket, she fails
to allege any compensable injury proximately caused
by FMB’s filing. Moreover, the judge in the 2017 case

App. 27
ordered FMB to redact Walton’s personal information
and it complied. The court also ordered the previously
filed, unredacted exhibit containing Walton’s information
sealed from public view. See l:17-cv-1888 at ECF No.
178 and EOF No. 179. Even if the Court were to as­
sume arguendo that FMB had breached some duty to
Walton when it filed the unredacted document, Wal­
ton’s claim would still fail, as she fails to sufficiently
plead any compensable harm related to this incident.
Moreover, Walton has not alleged any plausible
misuse of her personal information stemming from any
of the complained of disclosures noted above. There­
fore, Walton has failed to plead facts showing that any
of the disclosures of her personal information were the
result of Defendants’ breach of a duty owed to her, or
that any of the disclosures proximately caused Walton
compensable harm. Walton has therefore failed to state
a cognizable claim for negligence under Indiana law.
Walton’s negligence claim is dismissed with preju­
dice.
B. Race Discrimination (ECOA)
Next, Walton alleges that FMB discriminated
against her on the basis of her race in violation of the
ECOA. (ECF No. 66 at 6. M 29-34.) Walton alleges that
FMB violated the ECOA when it (1) failed to “apply
[Walton’s] funds to [her] [l]oan account” and (2) when
it made changes to Walton’s loan account without dis­
closing these changes to her. (ECF No. 66 at 3. H 16;
ECF No. 66 at 6. 'll 32.) Walton also summarily alleges

App. 28
that she was “clearly discriminated against. . . based
on her race” and that FMB subjected her to disparate
treatment as compared to “[w]hite [c]ustomers.” (ECF
No. 66 at 6. f 34.)
To state a claim under the ECOA, a plaintiff must
allege that (1) she was an “applicant,” as defined by the
ECOA and (2) she was treated less favorably because
of her race. See Estate ofDavis v. Wells Fargo Bank, 633
F.3d 529, 538 (7th Cir. 2011); Moran Foods, Inc. v. MidAtlantic Market Dev. Co., 476 F.3d 436, 441 (7th Cir.
2007). The ECOA makes it illegal for creditors to “dis­
criminate against any applicant, with respect to any
aspect of a credit transaction ... on the basis of race.”
15 U.S.C. § 1691(a)(1). The statute defines “applicant”
as “any person who applies to a creditor directly for an
extension, renewal, or continuation of credit, or applies
to a creditor indirectly by use of an existing credit plan
for an amount exceeding a previously established
credit limit.” 15 U.S.C. § 1691a(b). Walton fails to plau­
sibly allege either of these elements and dismissal is
therefore proper on her ECOA claim.
As best as the Court can tell, the only facts in
Walton’s complaint that relate to her ECOA race dis­
crimination claim are: (1) Walton is African American,
(2) FMB made changes to Walton’s loan account with­
out telling her, and (3) FMB treated Walton less favor­
ably than it treated its white customers. Although
Walton alleges that she is African American, she fails
to allege sufficient facts showing that FMB mistreated
her because of her race. Walton’s allegations on this
point are conclusory. For example, Walton alleges that

App. 29
FMB “clearly” discriminated against her on the basis
of race but fails to present the Court with any facts to
permit a plausible inference of discrimination. In addi­
tion, Walton alleges that FMB treated white customers
better than it treated her, but alleges no facts relat­
ing to FMB’s treatment of any similarly situated white
customers. Absent any factual allegations, Walton’s
claim of discrimination amounts to no more than mere
“labels” and “conclusions.” Twombly, 550 U.S. 544 at
556 (2007). Walton has therefore failed to state a claim
for violation of the ECOA upon which relief can be
granted, and this claim is dismissed with prejudice.
C. Negligence per se
Because Walton has failed to state a claim for re­
lief on her ECOA claim, she necessarily fails to state a
claim for relief with respect to her negligence per se
claim. Negligence per se “occurs when a violation of a
statute or ordinance constitutes negligence as a matter
of law.” Spierer v. Rossman, 798 F.3d 502, 509 (7th Cir.
2015) Walton has failed to plead sufficient facts show­
ing FMB’s violation of the relevant statute, the ECOA,
so her negligence per se claim also fails. This claim is
therefore dismissed with prejudice.
IV. Sanctions
Courts typically show leniency to pro se litigants.
See, e.g., Erickson v. Pardus, 551 U.S. 89, 93 (2007) (“A
document filed pro se is to be liberally construed, and
a pro se complaint, however inartfully pleaded, must

App. 30
be held to less stringent standards than formal plead­
ings drafted by lawyers.”) However, pro se litigants are
not immune from sanction by virtue of their pro se sta­
tus. See Johnson v. State Farm Mut. Auto. Ins. Co., 641
F. Supp. 2d 748, 753 (C.D. Ill. July 6, 2009) (“While a
court should be more lenient in assessing sanctions
against a pro se litigant, when she persists . . . long af­
ter it should have been clear [her claims were merit­
less] sanctions should be imposed.”).
Walton is no ordinary pro se litigant. Since 2003,
Walton has filed at least twenty cases in this district
court alone.1 Walton should therefore be familiar with
the filing requirements in federal court. Moreover, de­
spite her pro se status, Walton is surely aware of the
potential consequences for abuse of the judicial pro­
cess. In several of Walton’s earlier cases, the court or­
dered Walton to pay the opposing parties’ attorney’s
1 See, e.g., Walton v. First Merchants Bank, l:17-cv-1888JMS-MPB; Walton v. EOS CCA, l:15-cv-822-TWP-DML; Walton v.
Health & Hosp. Corp. of Marion Cty., Ind., Pub. Health Div., l:06-cv1128-LJM-WTL; Walton v. JP Morgan Chase Bank, NA Home
Loans, l:16-cv-447-TWP-DKL; Walton v. Bank of America, l:14-cv1237-SEB-DKL; Walton v. BMO Harris Bank, l:16-cv-3302-WTLDLP; Walton v. Equifax Inc., l:18-cv-225-SEB-DLP; Walton v. Hyatt
& Rosenbaum, P.A., No. l:08-cv-1275-SEB-TAB; Walton v. Springmill Streams Homeowners Assoc., l:09-cv-01136-TWP-DML; Walton
v. Proffitt, l:04-cv-02028-LJM-WTL; Walton v. Claybridge Homeowners Assoc., l:03-cv-00069-LJM-WTL; Walton v. City of Carmel,
l:05-cv-00902-RLY-TAB; Walton v. Rubin & Levin P.C., l:05-cv01132; Walton v. Trans Union, LLC, l:07-cv-00372-WTL-DML; Wal­
ton v. Claybridge Homeowners Assoc., l:07-cv-01484-DFH-DML;
Walton v. Naijar, l:09-cv-01495-LJM-DML; Walton v. Bank ofAmer­
ica, l:ll-cv-00685-SEB-DML; Walton v. Freddie Mac, 3:12-cv-00116;
Walton v. Chase Home Finance, LLC, l:ll-cv-00417-JMS-MJD.

App. 31
fees for Walton’s frivolous filings. See, e.g., Walton v.
Hyatt & Rosenbaum, P.A., l:08-cv-1275-SEB-TAB; Wal­
ton v. Springmill Streams Homeowners Assoc., l:09-cv1136-TWP-DML; Walton v. First Merchants Bank,
l:17-cv-1888. Indeed, Walton herself moved for sanc­
tions in the 2017 case.
The Seventh Circuit has also warned Walton of the
potential consequences for filing frivolous lawsuits. In
Walton v. Claybridge Homeowners Assoc., Walton al­
leged that a state judge in another case “ordered Wal­
ton ‘into [s]lavery’ ” and “gave the rights in her land ‘to
an [a] 11 [w]hite [g]roup of [pleople” when the judge
ruled against her in an easement dispute. 433 F. App’x
477, 478 (7th. Cir. 2011). The Seventh Circuit warned
Walton that if she continued to file frivolous law suits
in abuse of the judicial process, she could be assessed
“monetary sanctions and restrictions on future suits.”
Id. at 480.
As explained above, the allegations in Walton’s
amended complaint—most notably her allegation that
FMB shared her contact information with its attorneys
and with Walton herself—are frivolous. See Fed. R. Civ.
R 11(b)(2). But even more troubling is the evidence—
before the Court as an exhibit to Walton’s own
amended complaint (ECF No. 66-5 at 12)—that Walton
filed this lawsuit to harass a witness (FMB’s general
counsel, Brian Hunt) from the 2017 case. During the
deposition of Mr. Hunt in the 2017 case, Walton
warned, “If I don’t get it from him here, I’ll get it from
the next lawsuit. And you will be a party to—.” Wal­
ton’s threat was not idle: this is the “next lawsuit,” and
Mr. Hunt is indeed a defendant. But neither will the

App. 32
Seventh Circuit’s warning be idle: Walton is ordered to
show cause why the allegations of her amended com­
plaint do not violate Rule 11(b)(1) and (2).
V. Conclusion
For the foregoing reasons, Defendants’ Rule 12(b)(6)
motion to dismiss (ECF No. 73) is GRANTED and
Walton’s amended complaint is dismissed with prej­
udice for failure to state a claim upon which relief can
be granted. Consequently, the Court DENIES Defend­
ants’ first motion to dismiss (ECF No. 10) as moot. It is
further ORDERED that Walton shall, by February 28,
2019, SHOW CAUSE why Walton should not be as­
sessed sanctions for violation of Fed. R. Civ. R 11(h).
SO ORDERED.
Date: 2/20/2019

/s/ James R. Sweeney II_________
JAMES R. SWEENEY II, JUDGE
United States District Court
Southern District of Indiana

Distribution:
DEBORAH WALTON
P.O. Box 598
Westfield, IN 46074
Andrew M. Pendexter
BINGHAM GREENEBAUM DOLL LLP (Indianapolis)
apendexter@bgdlegal.com
David O. Tittle
BINGHAM GREENEBAUM DOLL LLP (Indianapolis)
dtittle@bgdlegal.com

